M s . Virginia K . Fl ow e rs
A s s is tant Re gionalCom m is s ione r
   for M anage m e nt and O pe rations Support
SocialSe curity Adm inis tration, Re gion III
P.O . Box 8788
Ph ilade l                 vania 19 101
           ph ia, Pe nns y l

D e ar M s . Fl
              ow e rs :

Th e e ncl os e d finalre port pre s e nts th e re s ul
                                                      ts of our audit of th e adm inis trative
cos ts cl aim e d by th e Pe nns y l  vania State D e partm e nt of Labor and Indus try for its
Bure au of D is abil  ity D e te rm ination (PA -BD D )(A-13-9 7-52019 ). W e re vie w e d th e
adm inis trative cos ts of $144,831,9 76 for th e SocialSe curity Adm inis tration
dis ability de te rm inations cl   aim e d as of June 30, 19 9 7 for th e Fis calYe ars (FY)
e nde d Se pte m be r 30, 19 9 4, 19 9 5, and 19 9 6.

W h il
     e th e re s ults of our audit indicate th at cos t cl   aim e d by PA -BD D w e re al low abl  e
and prope rl   y allocate d and th at aggre gate funds draw n dow n agre e d w ith total
e xpe nditure s , w e note d one inte rnalcontrolis s ue re l    ating to th e draw dow n of
funds . Bas e d on our re vie w of th e State Com ptrol       l   s O ffice , Bure au of Financial
                                                               e r’
M anage m e nt, w e ide ntifie d an e rror w h e re funds w e re draw n dow n from th e
w rong FY funding s ource . Be caus e control        s w e re not in pl  ace to re adily de te ct
s uch e rrors , th e e rror w e nt unde te cte d for about 9 m onth s . As such , w e
re com m e nde d q uarte rl y re conciliations of draw dow ns to e xpe nditure s for e ach
FY. Since our draft re port, th e State age ncy (SA )h as indicate d th at it h as
de ve l
      ope d w ritte n proce dure s to ins truct s taff on h ow to re concil     e draw dow ns by
FY. W e ack now l     e dge th e SA’ s corre ctive action and urge SA staff to com pl        y w ith
th e pre s cribe d guidance .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl    ate d. Ifyou
ch oos e to com m e nt, pl  e as e provide your com m e nts w ith in th e ne xt 60 days . If
you w is h to dis cus s th e finalre port, pl e as e cal
                                                       lm e or h ave your s taff contact
D onald G. Frank l in, D ire ctor, Sys te m s and FinancialM anage m e nt Audits , at
(410)9 65-9 706.

                                                  Since re l
                                                           y,




                                                  Pam e l   a J. Gardine r
                                                  A s s is tant Ins pe ctor Ge ne ral
                                                     for Audit
M s . Virginia K . Fl ow e rs
A s s is tant Re gionalCom m is s ione r
   for M anage m e nt and O pe rations Support
SocialSe curity Adm inis tration, Re gion III
P.O . Box 8788
Ph ilade l                 vania 19 101
           ph ia, Pe nns y l

D e ar M s . Fl
              ow e rs :

Th is finalre port pre s e nts th e re s ul
                                          ts of our audit of adm inis trative cos ts cl  aim e d by
th e Pe nns y lvania (PA )State D e partm e nt of Labor and Indus try (L& I) for its Bure au
of D is ability D e te rm ination (PA -BD D ). PA -BD D pe rform s disabil ity de te rm inations
unde r th e SocialSe curity Adm inis tration’    s (SSA )D is ability Ins urance (D I)and
Suppl  e m e ntalSe curity Incom e (SSI)program s . Th e obje ctive s of our audit w e re
to:

• de te rm ine w h e th e r cos ts cl
                                    aim e d on th e State A ge ncy Re port of O bl
                                                                                 igations
  for SSA D is abil  ity Program s (Form SSA -4513) for th e pe riod O ctobe r 1, 19 9 3
  th rough Se pte m be r 30, 19 9 6, w e re al   l
                                                 ow abl e and prope rly al
                                                                         locate d;

•	 de te rm ine if th e aggre gate of th e SSA funds draw n dow n agre e d w ith total
   e xpe nditure s for th e Fis calYe ars (FY)19 9 4 th rough 19 9 6 dis abil
                                                                            ity
   de te rm inations ;and

• e val
      uate inte rnalcontrol  s ove r th e accounting and re porting of th e
  adm inis trative cos ts cl
                           aim e d, as w e l
                                           las of th e draw dow n of SSA funds .

W e re vie w e d th e adm inis trative cos ts of $144,831,9 76 for SSA disabil            ity
de te rm inations cl   aim e d as of June 30, 19 9 7 for th e ye ars e nde d Se pte m be r 30,
19 9 4, 19 9 5, and 19 9 6. O ur proce dure s w e re de s igne d to de te rm ine w h e th e r
cos ts w e re al   l
                   ow abl e and prope rl   y al locate d and SSA funds w e re accounte d for
prope rl y. Al   s o, w e re vie w e d inte rnalcontrol  s ove r th e accounting, re cording, and
re porting of trans actions . Th e re s ul     ts of our te s ts indicate d th at, w ith re s pe ct to
th e ite m s te s te d, PA -BD D com pl   ie d in allm ate rialre s pe cts w ith th e Fe de ralcos t
principl  e s and re gul  ations . Spe cifical   l
                                                 y, cos ts claim e d by PA -BD D w e re al    l
                                                                                              ow abl e
Page 2 - M s . Virginia K . Fl
                             ow e rs

and prope rl  y al  locate d and th at aggre gate funds draw n dow n agre e d w ith total
e xpe nditure s . W ith th e e xce ption of one inte rnalcontrolis s ue , w e be l     ie ve th e
inte rnalcontrol    s for th e ite m s te s te d provide d a re as onable bas is for th e
accounting and re porting of adm inis trative cos ts cl         aim e d by PA -BD D . For th os e
ite m s not te s te d, noth ing cam e to our atte ntion to indicate th at th e unte s te d ite m s
w e re not in com pl   iance w ith appl     icabl e l
                                                    aw s and re gul ations .

For th e inte rnalcontrolis s ue ide ntifie d during th e audit, th e State age ncy (SA )
provide d us w ith com m e nts indicating it h as tak e n s te ps to im ple m e nt our
re com m e ndation. SSA advis e d us th at it h ad no furth e r com m e nts . Se e
A ppe ndix D for th e ful
                        lte xt of th e SA’   s com m e nts .

                                      INTRO D UCTIO N
Th e D Iprogram w as e s tabl     is h e d in 19 54 unde r titl
                                                              e IIof th e SocialSe curity Act
(th e A ct). Th e program is d e s igne d to provide be ne fits to w age e arne rs and th e ir
fam ilie s in th e e ve nt th e w age e arne r be com e s dis abl e d. In 19 72, Congre s s
e nacte d titl e XVI, th e SSIprogram . Titl      e XVIof th e A ct provide s a national   ly
uniform program of incom e to financial           l
                                                  y ne e dy individual s w h o are age d, blind, or
dis abl e d.

SSA is prim aril    y re s pons ible for im pl e m e nting th e ge ne ralpol  icie s for de ve l
                                                                                               oping
dis abil ity cl aim s unde r th e D Iand SSIprogram s . D is abil      ity de te rm inations unde r
both D Iand SSIare pe rform e d by an age ncy in e ach State according to Fe de ral
re gul ations . To carry out its obl      igation, e ach SA is re s pons ibl
  e for de te rm ining th e
cl aim ants ’dis abil  itie s and e ns uring th at ade q uate e vide nce is avail    able to s upport

its d e te rm inations . To as s is t in m ak ing prope r dis abil  ity de te rm inations , e ach SA is
auth orize d to purch as e m e dicale xam inations , x-ray s , and l       aboratory te s ts on a
cons ul  tative bas is to s uppl  e m e nt e vide nce obtaine d from cl    aim ants ’ph y s icians or
oth e r tre ating s ource s .

SSA pay s th e SA for 100 pe rce nt of al      l
                                               ow abl e e xpe nditure s . Each ye ar, SSA
de te rm ine s th e am ount of funding auth orization. O nce approve d, e ach SA is
allow e d to w ith draw SSA funds th rough th e D e partm e nt of H e al     th and H um an
Se rvice s ’(H H S) Paym e nt M anage m e nt Sys te m (PM S) to m e e t im m e diate program
e xpe ns e s . H H S’D ivis ion of Paym e nt M anage m e nt is re s pons ible for ope rating th is
ce ntral ize d paym e nt s y s te m . Cas h draw n from th e D e partm e nt of th e Tre as ury
(Tre as ury) to pay for program e xpe nditure s is to be draw n according to Part 205
of Titl e 31 of th e Code of Fe de ralRe gul    ation (CFR)and in accordance w ith
inte rgove rnm e ntalagre e m e nts e nte re d into by Tre as ury and th e State s unde r th e
auth ority of th e Cas h M anage m e nt Im prove m e nt A ct of 19 9 0 (CM IA ), Pub l   ic
Law 101-453, 104 Stat. 1058, as am e nde d. A t th e e nd of e ach q uarte r of th e
Fe de ralFY, e ach SA subm its to SSA a "State A ge ncy Re port of O bl           igations for
Page 3 - M s . Virginia K . Fl
                             ow e rs

SSA D is ability Program s " (Form SSA -4513) to account for program disburs e m e nts
and unliq uidate d obligations . An advance or re im burs e m e nt for cos ts unde r th e
program m us t be m ade according to th e O ffice of M anage m e nt and Budge t (O M B)
     ar A -87, “
Circul            Cos t Principle s for State and LocalGove rnm e nts .”

PA -BD D is a com pone nt w ith in th e PA L& I. PA -BD D ’  s s ol
                                                                  e w ork is proce s s ing
SSA disabil ity de te rm inations . PA -BD D m aintains 3 l  ocations and e m pl oys
approxim ate ly 600 pe rs onne l  . Its budge t of $151,69 9 ,355 w as auth orize d by
SSA for dis ability de te rm inations for th e audite d FY s 19 9 4 th rough 19 9 6.

PA -BD D ’ s financialre porting functions are prim aril y th e re s pons ibility of th e State
Com ptrol   e rs O ffice , Bure au of FinancialM anage m e nt (SCO BFM ). Payrol
            l                                                                        lis
trans acte d by th e State O ffice of th e Budge t, Payrol  lD ivis ion. A llocation of
indire ct cos ts is done according to an L& Iindire ct cos t agre e m e nt th at is approve d
by th e U.S. D e partm e nt of Labor.

                                          SCO PE
O ur audit of PA -BD D adm inis trative cos ts for FY’s 19 9 4 th rough 19 9 6 w as
pe rform e d in accordance w ith ge ne rall
                                          y acce pte d gove rnm e nt auditing s tandards .
Th e obje ctive s of our audit w e re to:

�	 de te rm ine w h e th e r cos ts cl
                                     aim e d on th e Form SSA -4513 for th e pe riod
   O ctobe r 1, 19 9 3 th rough Se pte m be r 30, 19 9 6, w e re al
                                                                  low able and prope rl
                                                                                      y
   all
     ocate d;

�	 de te rm ine if th e aggre gate of th e SSA funds draw n dow n agre e d w ith total
   e xpe nditure s for th e FY s 19 9 4 th rough 19 9 6 dis abil
                                                               ity de te rm inations ;and

� e val
      uate inte rnalcontrol  s ove r th e accounting and re porting of th e
  adm inis trative cos ts cl
                           aim e d, as w e l
                                           las of th e draw dow n of SSA funds .

W e obtaine d s ufficie nt e vide nce to e valuate th e financialtrans actions to de te rm ine
if th e y are al
               l     e unde r O M B Circul
                ow abl                       ar A -87 and appropriate as d e fine d by
SSA 's Program O pe rations M anualSys te m (PO M S). To accom pl        is h our obje ctive s ,
w e:

� re vie w e d Titl
                  e 20 CFR s e ctions , th e PO M S, and oth e r ins tructions pe rtaining to
  adm inis trative cos ts incurre d by PA -BD D and to th e draw dow n of SSA funds
  cove re d by th e CM IA agre e m e nt;

� inte rvie w e d PA -BD D pe rs onne l
                                      , L& Iinte rnalauditors , th e PA A uditor Ge ne ral
                                                                                         ’s
  s taff, and SSA 's s taff at th e Ph il
                                        ade lph ia Re gionalO ffice of D is abil
                                                                               ity;
Page 4 - M s . Virginia K . Fl
                             ow e rs


� re vie w e d PA -BD D ’
                        s ge ne ralpolicie s and proce dure s ;
� re vie w e d inte rnalcontrols re garding accounting and financialre porting, and
  cas h m anage m e nt activitie s ;

� pe rform e d an e xam ination of th e adm inis trative e xpe nditure s (pe rs onne l
                                                                                     ,
  m e dicals e rvice , indire ct, and al
                                       loth e r nonpe rs onne lcos ts )incurre d and
  claim e d by PA -BD D for th e pe riod O ctobe r 1, 19 9 3 th rough
  Se pte m be r 30, 19 9 6;

� re concil e d th e officialState accounting re cords to th e adm inis trative cos ts
  re porte d by PA -BD D to SSA on th e Form SSA -4513 re port for th e pe riod
  O ctobe r 1, 19 9 3 th rough Se pte m be r 30, 19 9 6;and

�	 com pare d th e am ount of SSA funds draw n for s upport of program ope rations
   to th e al
            low able e xpe nditure s .

W e te s te d docum e nts s upporting th e cos ts claim e d by PA -BD D for th e pe riod
O ctobe r 1, 19 9 3 th rough Se pte m be r 30, 19 9 6, as re porte d to SSA as of
June 30, 19 9 7.

Th e w ork w as pe rform e d at PA -BD D s ite s l  ocate d in H arrisburg, Gre e nsburg, and
W ilk e s -Barre , Pe nns y lvania;th e pare nt age ncy, PA L& I;SCO BFM ;th e O ffice of
Budge t, Payrol     lD ivis ion;and SSA H e adq uarte rs in Bal tim ore , M aryl
                                                                               and (s e e
A ppe ndix E for organization of SSA ). Th e fie l     d w ork w as conducte d from Augus t
th rough Nove m be r 19 9 7.

                                             FIND ING
Th e re s ul ts of our te s ts indicate d th at, w ith re s pe ct to th e ite m s te s te d, PA -BD D
com pl  ie d in allm ate rialre s pe cts w ith th e Fe de ralcos t principl   e s and re gul  ations .
For th os e ite m s not te s te d, noth ing cam e to our atte ntion to indicate th at th e
unte s te d ite m s w e re not in com pl  iance w ith appl   icabl e law s and re gul
    ations . W e
did, h ow e ve r, note a de ficie ncy in PA -BD D ’    s inte rnalcontrol   s ove r draw dow ns .


INTERNA LCO NTRO LS O VER D RAW D O W NS

PA -BD D m anage m e nt is re s pons ibl     e for adopting s ound accounting pol       icie s and for
e s tabl
       is h ing and m aintaining an inte rnalcontrols tructure th at w il         l
                                                                                  , am ong oth e r
th ings , re cord, proce s s , s um m arize , and re port financialdata th at is cons is te nt
w ith m anage m e nt’    s cos t as s e rtions e m bodie d in th e Form s SSA-4513 re porte d to
SSA . M anage m e nt control       s are th e organization, pol    icie s , and proce dure s us e d to
re as onabl  y as s ure : (i)as s e ts are s afe guarde d agains t l os s from unauth orize d us e
Page 5 - M s . Virginia K . Fl
                             ow e rs

or dis pos ition;(ii) th e e xe cution of trans actions are in accordance w ith th e budge t
auth ority and w ith appl    icable law s and re gul ations ;and (iii)prope r re cording,
proce s s ing, and s um m arizing of trans actions pe rm it th e pre paration of financial
re ports and to m aintain accountabil     ity for as s e ts .

Th e draw ing of SSA funds to pay PA -BD D e xpe nditure s is th e re s pons ibil          ity of th e
SCO BFM s taff w h o is as s igne d accounting and draw dow n re s pons ibil          itie s ove r th e
L& Iincl uding PA -BD D . According to CM IA , draw dow n of funds s h oul             d onl  y be
m ade w h e n le gitim ate e xpe nditure s e xis t and th e re is an im m e diate ne e d for funds .
Th is is to e ncourage State s to pay onl     y prope r ch arge s and not m aintain unus e d
funds . SSA funds appropriate d for a FY m us t be obl           igate d in th at ye ar. Th os e FY
funds m us t be us e d to pay e xpe nditure s re s ul  ting from th e FY obl    igations and
cannot be appl    ie d to oth e r ye ars ’obl
                                            igations .

Th e audit of th e draw dow ns of SSA funds for paying PA -BD D e xpe nditure s found
th at totalSSA funds draw n for th e 3 FY s audite d m atch e d cl      os e ly to totalPA -BD D
cos ts . H ow e ve r, w e note d an ins tance w h e re a draw dow n e rror w as m ade w h ich
w as l ate r corre cte d. Th e audit found ove r $1.6 m il   lion w as draw n incorre ctl  y from
a PM S al  lotm e nt account to pay FY 19 9 6 obl     igate d e xpe nditure s in A pril19 9 6.
Th e funds to pay th e s e e xpe nditure s w e re e rrone ous l y obtaine d from FY 19 9 5
funds , th us cre ating th e e ffe ct of ove r draw ing on 1 ye ar and unde r draw ing on
th e ne xt.

H ad th e re be e n prope r inte rnalcontrol    s to e ns ure th at funds w e re draw n from th e
corre ct FY funding s ource , th is e rror coul     d h ave be e n de te cte d m ore tim e l        e
                                                                                            y. W h il
th e SA conte nds th e re w e re proce dure s for re concil      ing totaldraw dow ns , w e
ide ntifie d no w ritte n proce dure s ins tructing SCO BFM s taff to pe rform routine
re concil  iations of q uarte rl y draw dow ns and e xpe nditure s by FY. As such , th e
$1.6 m il   l
            ion e rror w e nt unde te cte d for approxim ate l   y 9 m onth s untilJanuary 19 9 7
w h e n th e e rror w as d e te cte d. SCO BFM s taff corre cte d th e e rror and re al     l
                                                                                            ocate d
$1.6 m il   lion back into th e corre ct PM S al    l
                                                    otm e nt account. An e rror of th is k ind
can l e ad to fund controlprobl       e m s th at coul d adve rs e l
                                                                   y e ffe ct th e ope rations of
PA -BD D and, at th e Fe de rall     e ve l
                                          ,le ad to e rrors in budge tary re ports and viol    ations
of appropriation l    aw .

                                       CO NCLUSIO N
In our draft re port, w e re com m e nde d th at SSA ins truct SCO BFM to im prove
inte rnalcontrol  s ove r draw dow ns by re concil    ing q uarte rl
                                                                   y draw dow ns to
e xpe nditure s for e ach FY. Since th e n, th e SA h as provide d com m e nts indicating it
h as d e ve l
            ope d w ritte n proce dure s to ins truct s taff h ow to pe rform re conciliations
of q uarte rly draw dow ns by FY. W e ack now l       e dge th e corre ctive action tak e n by
Page 6 - M s . Virginia K . Fl
                             ow e rs

th e SA. Be caus e adh e re nce to th e pre s cribe d re concil
                                                              iation guidance is k e y to
e ns uring th at funds are draw n from th e corre ct FY funding s ource , w e urge SA
s taff to com pl y w ith th e w ritte n proce dure s .

                                              Since re l
                                                       y yours ,




                                              Pam e l   a J. Gardine r
                                              A s s is tant Ins pe ctor Ge ne ral
                                                 for Audit
A PPEND ICES

                         O BLIGATIO NS REPO RTED /A LLO W ED

               PENNSYLVANIA BUREAU O F D ISABILITY D ETERM I
 NA
                   FO R FISCA LYEAR 19 9 4 AS O F JUNE 30, 19 9 7
                                                                



                       TO TA LO BLIGATIO NS                      UNLIQUID A TED O BLIGATIO NS
                                    NET                                           NET
                              RECO M M END E                                RECO M M END ED
  CO STS      REPO RTED              D         A LLO W A BLE   REPO RTED    A D JUSTM ENTS    A LLO W A BLE   REPO RTED
                              A D JUSTM ENTS


PERSO NNEL    $26,514,016                $0    $26,514,016            $0                $0              $0    $26,514,016
M EDICA L      11,787,465                  0    11,787,465             0                  0              0     11,787,465
IND IRECT         572,153                  0       572,153             0                  0              0        572,153
A LLO TH ER     5,876,163                  0     5,876,163        76,266                  0        76,266       5,79 9 ,89 7
TO TA L       $44,749 ,79 7                0   $44,749 ,79 7     $76,266                $0        $76,266     $44,673,531




                                                                           A -1

                        O BLIGATIO NS REPO RTED /A LLO W ED

              PENNSLYVANIA BUREAU O F D ISABILITY D ETERM I
 NA
                  FO R FISCA LYEAR 19 9 5 AS O F JUNE 30, 19 9 7
                                                               



                      TO TA LO BLIGATIO NS                       UNLIQUID A TED O BLIGATIO NS
                                   NET                                           NET
                             RECO M M END ED                               RECO M M END ED
   CO STS     REPO RTED      A D JUSTM ENTS    A LLO W A BLE   REPO RTED   A D JUSTM ENTS    A LLO W A BLE   REPO RTED


PERSO NNEL    $29 ,233,568               $0    $29 ,233,568           $0               $0              $0    $29 ,233,568
M EDICA L      14,062,443                  0    14,062,443             0                 0              0     14,062,443
IND IRECT       1,066,09 5                 0      1,066,09 5           0                 0              0      1,066,09 5
A LLO TH ER     5,820,121                  0      5,820,121     231,009                  0       231,009       5,589 ,113
TO TA L       $50,182,227                  0   $50,182,227     $231,009                  0     $231,009      $49 ,9 51,219




                                                                       B-1

                         O BLIGATIO NS REPO RTED /A LLO W ED

               PENNSLYVANIA BUREAU O F D ISABILITY D ETERM I
 NA
                   FO R FISCA LYEAR 19 9 6 AS O F JUNE 30, 19 9 7
                                                                



                       TO TA LO BLIGATIO NS                         UNLIQUID A TED O BLIGATIO NS
                                    NET                                               NET
                              RECO M M END ED                                   RECO M M END E
   CO STS     REPO RTED       A D JUSTM ENTS    A LLO W A BLE    REPO RTED             D         A LLO W A BLE   REPO RTED
                                                                                A D JUSTM ENTS


PERSO NNEL    $29 ,601,807                 $0   $29 ,601,807        $51,013                $0        $51,013     $29 ,550,79
M EDICA L      15,853,827                   0    15,853,827       1,676,441                  0     1,676,441      14,177,38
IND IRECT       1,123,69 0                  0      1,123,69 0              0                 0               0     1,123,69
A LLO TH ER     5,849 ,89 6                 0      5,849 ,89 6      49 4,539                 0       49 4,539      5,355,35
TO TA L       $52,429 ,220                  0   $52,429 ,220     $2,221,9 9 3                0    $2,221,9 9 3   $50,207,22




                                                                           C-1

                             A PPEND IX D



STA TE AGENCY CO M M ENTS





           D -1

                                                                                  A PPEND IX E



            M A JO R REPO RT CO NTRIBUTO RS


Th is audit re port w as pre pare d by th e O ffice of Audit, FinancialM anage m e nt
Audits Te am in Bal   tim ore , unde r th e dire ction of D onal       in, D ire ctor. Audit
                                                               d Frank l
s taff incl
          ude d:

    Gale Stone , Audit M anage r
    Sig W is ow aty, Auditor In Ch arge
    Joh n Be ach am , Auditor

Additionalas s is tance from :

    Ph il
        ip Rogofs k y, Se nior Auditor
    Ste ve Sach s , Se nior Auditor
    Patrick K e nne dy, Se nior Auditor, ED P s upport

For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Pub l
                ic A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -13-9 7-52019 .




                                              E-1

                              A PPEND IX F



SSA O RGA NIZ A TIO NA LCH ART





              F-1

